Case 2:09-cr-00820-AM Document 670 Filed 05/16/12 Page 1 of 7

FILED
UNITED STATES DISTRICT COURT
Western District of Texas
DEL RIO DIVISION

1

6 2012

('f,IT
LI SI
fl LI LI
LI LI
DS,4ThCT OF TEXAS
I

UNITED STATES OF AMERICA
Case Number
USM Number

V.

I

J

1'.

I

DR-09-CR-820(5)-AM
37781-180

VICTOR ESQUIVEL
AKA: 'Youngster
Defendant.

JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed On or After November 1, 1987)
The defendant, VICTOR ESQUIVEL, was represented by Charles King.
The defendant was found guilty on Count(s) One, Five and Six of the Indictment by a jury verdict on July 6, 2011 after
a plea of not guilty. Accordingly, the defendant is adjudged guilty of such Count(s), involving the following offense(s):

Title & Section

Nature of Offense

Offense Ended

Count (s)

18 U.S.C. § 1962(d)

Conspiracy to Conduct the Affairs
of an Enterprise Through a Pattern of
Racketeering

Beginning around 2004,
the exact date unknown,
and continuing on the date of
the Indictment

One

18 U.S.C. § 1959

Violent Crimes in Aid of Racketeering

July 19, 2008

Five

18 U.S.C. § 1959

Violent Crimes in Aid of Racketeering

July 13, 2008

Six

As pronounced on April 12, 2012, the defendant is sentenced as provided in pages 2 through 7 of this Judgment. The
sentence is imposed pursuant to the Sentencing Reform Act of 1984.
It is further ordered that the defendant shall notify the United States Attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
Judgment are fully paid. If ordered to pay restitution, the defendant shall notify the Court and United States Attorney of any
material change in the defendas economic circumstances.

Signed this the

) (o

rday of May, 2012.

/

ALIA MOSES /
United States District Judge

Arresting Agency: FBI and HSI

1a

Case 2:09-cr-00820-AM Document 670 Filed 05/16/12 Page 2 of 7
AO

245 B (Rev. 06/05)(W.D.TX.)

-

Imprisonment

Judgment--Page 2
Defendant: VICTOR ESQUIVEL
Case Number: DR-09-CR-820(5)-AM

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for two
terms of the defendant's life on each of Counts One and Five, and a term of 120 months on Count Six, all to run consecutively,
with credit for time served since July 24, 2009.
The defendant shall remain in custody pending service of sentence.

RETURN
I

have executed this Judgment as follows:

Defendant delivered on
at

to
with a certified copy of this Judgment.

United States Marshal
By

Deputy Marshal

2a

Case 2:09-cr-00820-AM Document 670 Filed 05/16/12 Page 3 of 7
AO 245 B (Rev. 06/05)(W.D.TX.) - Supervised Release

Judgment--Page 3
Defendant: VICTOR ESQUIVEL
Case Number: DR-09-CR-820(5)-AM

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of five years on each of
Counts One and Five, and three years on Count Six, all to run consecutively.

While on supervised release, the defendant shall comply with the mandatory, standard and if applicable, the special
conditions that have been adopted by this Court as set forth on pages 4 and 5 of this judgment; and shall comply with the
following additional conditions:

X

The defendant shall abstain from the use of alcohol and/or all other intoxicants during the term of supervision.

3a

Case 2:09-cr-00820-AM Document 670 Filed 05/16/12 Page 4 of 7
AO 245 B (Rev. O5/04(W.D.TX. - SuDervised Release
Judgment--Page 4
Defendant: VICTOR ESQUIVEL
Case Number: DR-09-CR-820(5)-AM
CONDITIONS OF SUPERVISION

Mandatory Conditions:
1)

The defendant shall not commit another federal, state, or local crime during the term of supervision.

2)

The defendant shall not unlawfully possess a controlled substance.

3)

The defendant shall refrain from any unlawful use of a controlled substance. The defendant shall submit to one drug test within
15 days of release on probation or supervised release and at least two periodic drug tests thereafter (as determined by the court)
for use of a controlled substance, but the condition stated in this paragraph may be ameliorated or suspended bythe court if the
defendant's presentence report or other reliable sentencing information indicates low risk of future substance abuse by the
defendant.

4)

In supervised release cases only, the

5)

If convicted of a felony, the defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous
weapon.

6)

The defendant shall cooperate in the collection of DNA as directed by the probation officer, if the collection of such a sample is
authorized pursuant to section 3 of the DNA Analysis Backlog Elimination Act of 2000 (42 U.S.C. § 14135a).

7)

If convicted of a sexual offense and required to register under the Sex Offender and Registration Act, that the defendant comply
with the requirements of the Act.

8)

If convicted of a domestic violence crime as defined in 18 U.S.C. § 3561(b), the defendant shall participate in an approved
program for domestic violence.

9)

If the judgment imposes a fine or restitution, it is a condition of supervision that the defendant pay in accordance with the
Schedule of Payments sheet of the judgment.

defendant must report to the probation office in the district to which the defendant is
released within 72 hours of release from custody of the Bureau of Prisons.

Standard Conditions:
1)

The defendant shall not leave the judicial district without permission of the court or probation officer.

2)

The defendant shall report to the probation officer and shall submit a truthful and complete written report within the first five days
of each month, or as directed by the probation officer.

3)

The defendant shall answer truthfully all inquiries by the pobation officer and follow the instructions of the probation officer.

4)

The defendant shall support his or her dependents and meet other family obligations, and shall comply with the terms of any
court order or order of an administrative process requiring payments by the defendant for the support and maintenance of a child
or of a child and the parent with whom the child is living.

5)

The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
acceptable reasons.

6)

The defendant shall notify the probation officer at least ten days prior to any change in residence or employment.

7)

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician.

8)

The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered.

9)

The defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person
convicted of a felony, unless granted permission to do so by the probation officer.

10)

The defendant shall permit a probation officer to visit him or her at any time, at home or elsewhere, and shall permit confiscation
of any contraband observed in plain view of the probation officer.

11)

The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement
officer.

12)

The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without
the permission of the court.

4a

Case 2:09-cr-00820-AM Document 670 Filed 05/16/12 Page 5 of 7
AO 245 B (Rev. O5/O4'(W.D.TX. - Supervised Release

Judgment--Page 5
Defendant: VICTOR ESQUIVEL
Case Number: DR-09-CR-820(5)-AM
13)

As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant's
criminal record or personal history or characteristics, and shall permit the probation officer to make such notifications, and to
confirm the defendant's compliance with such notification requirement.

14)

If convicted of a sex offense as described in the Sex Offender Registration and Notification Act or has a prior conviction of a
State or local offense that would have been an offense as described in the Sex Offender Registration and Notification Act if a
circumstance giving rise to federal jurisdiction had existed, the defendant shall participate in a sex offender treatment program
approved by the probation officer. The defendant shall abide by all program rules, requirements and conditions of the sex
offender treatment program, including submission to polygraph testing, to determine if the defendant is in compliance with the
conditions of release. The defendant may be required to contribute to the cost of the services rendered (copayment) in an
amount to be determined by the probation officer, based on the defendant's ability to pay.

15)

The defendant shall submit to an evaluation for substance abuse or dependency treatment as directed by the probation officer,
and if deemed necessary by the probation officer, the defendant shall participate in a program approved by the probation officer
for treatment of narcotic addiction or drug or alcohol dependency which may include testing and examination to determine if the
defendant has reverted to the use of drugs or alcohol. During treatment, the defendant shall abstain from the use of alcohol and
any and all intoxicants. The defendant may be required to contribute to the cost of the services rendered (copayment) in an
amount to be determined by the probation officer, based upon the defendant's ability to pay.

16)

The defendant shall submit to an evaluation for mental health counseling as directed by the probation officer, and if deemed
necessary by the probation officer, the defendant shall participate in a mental health program approved by the probation officer.
The defendant may be required to contribute to the cost of the services rendered (copayment) in an amount to be determined by
the probation officer, based upon the defendant's ability to pay.

17)

The defendant shall participate in a cognitive behavioral treatment program as directed by the probation officer, and if deemed
necessary by the probation officer. Such program may include group sessions led by a counselor or participation in a program
administered by the probation office. The defendant may be required to contribute to the cost of the services rendered
(copayment) in an amount to be determined by the probation officer, based upon the defendant's ability to pay.

18)

The defendant shall participate in workforce development programs and services as directed by the probation officer, and if
deemed necessary by the probation officer, which include occupational/career development, including but not limited to
assessment and testing, education, instruction, training classes, career guidance, job search and retention services until
successfully discharged from the program. The defendant may be required to contribute to the cost of the services rendered
(copayment) in an amount to be determined by the probation officer, based upon the defendant's ability to pay.

19)

If the defendant is excluded, deported, or removed upon release on probation or supervised release, the term of supervision shall
be a non-reporting term of probation or supervised release. The defendant shall not illegally re-enter the United States. If the
defendant lawfully re-enters the United States during the term of probation or supervised release, the defendant shall
immediately report in person to the nearest U.S. Probation Office.

20)

If the judgment imposes other criminal monetary penalties, it is a condition of supervision that the defendant pay such penalties
in accordance with the Schedule of Payments sheet of the judgment.

21)

If the judgment imposes a fine, special assessment, restitution, or other criminal monetary penalties, it is a condition of
supervision that the defendant shall provide the probation officer access to any requested financial information.

22)

If the judgment imposes a fine, special assessment, restitution, or other criminal monetary penalties, it is a condition of
supervision that the defendant shall not incur any new credit charges or open additional lines of credit without the approval of the
probation officer, unless the defendant is in compliance with the payment schedule.

5a

Case 2:09-cr-00820-AM Document 670 Filed 05/16/12 Page 6 of 7
AQ 245 B (Rev. 05/04'(W.D.TX.' - Suoervised Release
Judgment--Page 6
Defendant: VICTOR ESQUIVEL
Case Number: DR-09-CR-820(5)-AM

The Court further adopts such of the following special conditions applied to the supervised person by the judge at the time of
sentencing:
1)

Community Confinement: The defendant shall reside in a Community Corrections Center for a period of

months to
commence on
Further, once employed, the defendant shall pay 25% of his/her weekly gross income for his/her
subsistence as long as that amount does not exceed the daily contract rate.

Location Monitoring Program:
2)

Radio Frequency Monitoring: The defendant shall participate in the Location Monitoring Program with Radio Frequency
Monitoring for a period of
days/months. You shall abide by the rules and regulations of the Participant Agreement Form.
During this time, you will remain at your place of residence except for employment and other activities approved in advance by
your probation officer. You will maintain a telephone at your place of residence without "caller ID," "call forwarding," "call waiting,"
"call back/call block," a modem or a portable cordless telephone for the above period as directed by the probation officer. You
will wear an electronic monitoring device and follow location monitoring procedures specified by your probation officer. You shall
pay all or part of the costs of the program based on the ability to pay as directed by the probation officer.

3)

Global Positioning Satellite (GPS): The defendant shall participate in the Location Monitoring Program for a term not to exceed

days/months, which will include remote location monitoring using __Active _Passive Global Positioning Satellite
(GPS) tracking. You shall abide by the rules and regulations of the Participant Agreement Form. During this time, you will
remain at your place of residence except for employment and other activities approved in advance by your probation officer. You
will maintain a telephone at your place of residence without "caller ID," "call forwarding," "call waiting," "call back/call block," a
modem or a portable cordless telephone for the above period as directed by the probation officer. At the direction of the
probation officer, you shall wear a transmitter and be required to carry a tracking device. You shall pay all or part of the costs of
the program based on the ability to pay as directed by the probation officer.
4)

Community Service: The defendant shall perform
hours of community service work without pay, at a location approved by
the probation officer, at a minimum rate of four hours per week, to be completed during the first
months of supervision.

5)

Sex Offender Search & Seizure Condition: If required to register under the Sex Offender Registration and Notification Act, the
defendant shall submit his person, and any property, house, residence, vehicle, papers, computer, other electronic
communication or data storage devices or media, and effects to search at any time, with or without a warrant, by any law
enforcement or probation officer with reasonable suspicion concerning a violation of a condition of probation or supervised
release or unlawful conduct by the person, and by any probation officer in the lawful discharge of the officer's supervision
functions.

6)

Standard Search & Seizure Condition: The defendant shall submit his or her person, property, house, residence, vehicle,
papers, [computers as defined in 18 U.S.C. Section 1030(e)(1), other electronic communications or data storage devices or
media,] or office to a search conducted by a United States probation officer. Failure to submit to a search may be grounds for
revocation of release. The defendant shall warn any other occupants that the premises may be subject to searches pursuant to
this condition. Any search must be conducted at a reasonable time and in a reasonable manner.

6a

Case 2:09-cr-00820-AM Document 670 Filed 05/16/12 Page 7 of 7
AO

245 B (Rev. 06/05)(W.D.TX.)

-

CMP

Judgment--Page 7
Defendant: VICTOR ESQUIVEL
Case Number: DR-09-CR-820(5)-AM

CRIMINAL MONETARY PENALTIES! SCHEDULE
The defendant shall pay the following total criminal monetary penalties in accordance with the schedule of payments
set forth. Unless the Court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. Criminal Monetary Penalties, except those payments made through Federal
Bureau of Prisons' Inmate Financial Responsibility Program shall be paid through the Clerk, United States District Court, 111 E.
Broadway, Suitel 00 Del Rio, Texas 78840.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

TOTAL:

Assessment

Fine

Restitution

$300.00

$0

$0

Special Assessment
It is ordered that the defendant shall pay to the United States a special assessment of $300.00. The debt is incurred
immediately.

Fine
The fine is waived because of the defendant's inability to pay.

If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless
specified otherwise in the priority order or percentage payment column above. However, pursuant to 18 U.S.C. § 3664(i), all
non-federal victims must be paid before the United States is paid.
If the fine is not paid, the court may sentence the defendant to any sentence which might have been originally imposed.
See 18 U.S.C. §3614.

The defendant shall pay interest on any fine or restitution of more than $2,500.00, unless the fine or restitution is paid in
full before the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. §3612(f). All payment options may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. §3612(g).
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4)
fine principal, (5) community restitution, (6) fine interest, (7) penalties, and (8) costs, including cost of prosecution and court
costs.
Findings for the total amount of losses are required under Chapters 1 09A, 110, 11 OA, and 11 3A of Title 18 for offenses
committed on or after September 13, 1994, but before April 23, 1996.

7a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 1 of 31

FILED
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
DEL RIO DIVISION

MAR 272019

VICTOR ESQUIVEL,
Petitioner,
§

§

V.

Civil No. DR:15-CV-120AM
Criminal No. DR:9-CR-820(5)-AM

§

UNITED STATES OF AMERICA,
Respondent.

§
§

ORDER
Pending before the Court is the Petitioner Victor Esquivel' s Motion Under 28 U.S.C. § 2255
to Vacate, Set Aside, or Correct Sentence by a Person in Federal Custody (ECF No. 768), along with

his memorandum in support (ECF No. 769) and his supplement to his

§

2255 Motion (ECF No.

770). Also pending is his Motion to Compel his Attorney Charles King to Surrender the Case File

in Cause No. DR-09-CR-820-AM. (ECF No. 757.) After reviewing the filings, the Court finds that

Esquivel is not entitled to any relief, as explained in full below.
F

___

A. Relevant Facts and Procedural History

On July 14, 2009, Esquivel and eleven others were charged in a six-count indictment, where

Esquivel was charged with three of the six counts:
(1) Conspiracy to conduct the affairs of an enterprise through a
pattern of racketeering, 18 U.S.C. § 1962(d) (Racketeer Influenced
and Corrupt Organizations Act or "RICO" conspiracy), through:
a)

the murder of Jose Damian Garza, in violation of
Texas Penal Code sections 7.01, 7.02, 15.02, 15.03,
and 19.02;

b)

conspiracy to interfere with commerce by extortion

8a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 2 of 31

under 18 U.S.C.
c)

1951 (the "Hobbs Act"); and

§

conspiracy to distribute narcotics, in violation of 21
U.S.C. § 841 and 846;

(2) Racketeering-related murder of Jose Damian Garza under the
Violent Crimes in Aid of Racketeering Act ("VICAR"), 18 U.S.C. §
1959(a)(1); and

(3) Conspiracy to commit the racketeering-related murder of Jose
Damian Garza under VICAR, 18 U.S.C. § 1959(a)(5).

Esquivel elected to proceed to trial, along with his co-defendant Javier Guerrero, and on July 6,
2011, a jury convicted him of all three counts. Thereafter, he was sentenced to life in prison for

count one, life in prison for count five, and ten years of imprisonment for count six, all to run
consecutively.
Trial testimony established that Esquivel alk!a Youngster was a mid-level member of the

Texas Mexican Mafia ("TMM"), a gang which engaged in drug trafficking and extortion. The TMM
established its dominance throughout parts of Texas by demanding a ten percent fee, called the

"dime," based on the value of illicit activity taking place within the TMM's territory. Non-TMM
members paying the dime are promised protection from other gangs, among other services.
Oftentimes, TMM members implement violence, including murder, to collect the dime from those

who resist paying, or to scare others into paying.
On July 13, 2008, Javier Guerrero, a co-defendant and lieutenant' of the "830'

area2

of the

TMM, called a meeting in Sabinal, Texas. The meeting was attended by numerous TMM members,

'The TMM is a paramilitary organization with hierarchical leadership.
2The 830 area includes the towns of Uvalde, Hondo, Sabinal, Crystal City, Del Rio, and Eagle Pass.

2

9a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 3 of 31

including Esquivel. As a show of force, Guerrero ordered the murders of at least two individuals
who refused to pay the dime, and several TMM members. In pertinent part, Arturo "Pollo"

Villarreal, the lieutenant of the Eagle Pass area, volunteered for the murder of Enrique "Buck"

Garza or his brother Jose Damian Garza. Villarreal then assigned the murder to Esquivel and Juan

Alfredo "Freddy"

Gloria-Perales.3

On July 18, 2008, Esquivel and Gloria-Perales traveled from Eagle Pass to Hondo, Texas,

broke into Jose Damian Garza' s home while wearing masks (and while Garza' s daughter and her two
friends were present), and jointly fatally shot Garza a total of at least nine times before returning to
Eagle Pass. Shortly after the fatal shooting, law enforcement detained Esquivel, who then provided

agents with his cell phone number. Based on cell phone data, law enforcement was able to confirm

Esquivel's presence near the meeting in Sabinal and Garza's home in Hondo at the time of the
shooting.
Esquivel proceeded to a joint trial with Guerrero. All other co-defendants pleaded guilty,
with some testifying against Guerrero and Esquivel. After a six-day trial, the jury found Guerrero
and Esquivel guilty of all counts.

Because Esquivel's convictions involved murder, he faced a mandatory sentence of life in
prison. Then, while awaiting sentencing, Esquivel attacked a prison guard. At sentencing, this

attack was taken into account, and Esquivel was sentenced to terms of life imprisonment for counts
one and five, and a term Of 120 months for count six, all to run consecutively to each other. The

Fifth Circuit Court of Appeals confirmed his conviction, and on November 12, 2014, the Supreme

3To secure a higher rank in membership in the TMM, a member is required to commit some form of violence,
usually murder, which Esquivel had yet to do.
3

10a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 4 of 31

Court denied certiorari.
Throughout the district court proceedings, Esquivel filed various pro se motions, including:
(1) a motion to withdraw appointed counsel; (2) a motion for a new trial; (3) a motion for recusal;

and (4) a motion for extension of time to file a notice of appeal. Although the motions contained

Esquivel's purported signature, they were all unquestionably drafted by Jose Cristobal Cardona, a
fellow TMM member and federal inmate convicted of drug trafficking serving a 40-year sentence
in an unrelated case. The motion to withdraw appointed counsel was denied as moot, but the motion

for a new trial, motion for recusal, and motion for extension of time were denied because the Court

declined to allow Esquivel to file pro se motions while represented by counsel.
On March 30, 2015, prior to filing a

§

2255 motion, Esquivel filed a motion to compel his

attorney, Charles King, to turn over his case file. (ECF No. 757.) According to Esquivel, he needed
the file to prepare a

§

2255 motion. He contends that he requested the documents from King, but

King did not respond.
B. Section 2255 Motion

On November 2, 2015, Esquivel, acting pro se, filed the present motion to vacate under

§

2255 (ECF No. 768) and a memorandum in support (ECF No. 769), arguing that counsel: (1) failed

to investigate a defense or call witnesses suggested by him; (2) failed to move to recuse the Court

after demonstrating personal bias against him; (3) failed to file a motion for a new trial; (4) failed
to object to the government's pretrial discovery violations, despite its withholding potentially

exculpatory evidence of interviews with cooperating informants; (5) failed to appeal the denial of
his motion to suppress; (6) failed to appeal the violation of his right to a fair trial when he was forced
to disrobe and present his tattoos to the jury; (7) failed to appeal the denial of his motion to sever his

ri

11a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 5 of 31

trial from his co-defendant; (8) failed to appeal the denial of his motion for judgment of acquittal;
(9) failed to argue that the use of gang expert testimony linking him to the Texas Mexican Mafia

violated his right to a fair trial; (10) failed to appeal the Court's refusal to address the merits of his
pro se motions; (11) failed to appeal that the jury instructions did not require the jury to determine
all of the elements

of the offenses; and (12) failed to argue that consecutive life sentences were

unreasonable.
On November 10, 2015, he filed a supplement to his § 2255 motion (ECF No. 770), arguing
that: (1) the Court denied him counsel during trial by denying him the appointment of two attorneys

and by failing to appoint new counsel to argue a motion for new trial; (2) the Court denied him
counsel at the appellate phase, arguing that appointed counsel was adversely affected by a conflict

of interest; (3) counsel failed to subject the prosecution's case to meaningful adversarial testing
because of fear ofthe Court; (4) prosecutorial misconduct based on Assistant United States Attorney
Joey Contrera's correspondence with Jose Cardona, who claimed he would testify on behalf of
Esquivel that he ordered someone else to collect the dime from Garza, who then shot Garza in selfdefense; (5) counsel was ineffective for failing to challenge the application of the Hobbs Act to his
case; (6) counsel was ineffective for failing to object to expert testimony that two people shot at the

victim Jose Damian Garza, thus usurping the function of the jury; (7) counsel failed to inform the

jury that he was incarcerated from June 30, 2005, to June 13, 2008; (8) counsel failed to object to
his prior conviction for misprision of a felony to show his guilt in a drug conspiracy predicate act;

and (9) the Court lacked the jurisdiction to sentence him because of a pending interlocutory appeal
on the issue of a motion for new trial.
On November 20, 2015, despite having already filed a

§

2255 motion and a supplement to

12a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 6 of 31

the motion, Esquivel filed a motion for extension of time to file a

§

2255 motion. (ECF No. 772.)

Finally, on May 17, 2016, now represented by counsel, Esquivel filed a motion for leave to file an

amended or supplemental

§

2255 motion (ECF No. 807), which was granted by the Court, arguing

that he was constructively denied counsel when he moved for a new trial and requested new counsel
based on ineffective assistance of counsel, but that same attorney was appointed to represent him on
direct appeal, and that attorney then filed an Anders brief (signifying there was no merit to the

appeal).

IL SECTION 2255 STANDARD
Under

§

2255, a petitioner may move to vacate, set aside, or correct his sentence or

conviction "for transgressions of constitutional rights and for a narrow range of injuries that could

not have been raised on direct appeal and would, if condoned, result in a complete miscarriage of

justice." United States

v.

Vaughn, 955 F.2d 367, 368 (5th Cir. 1992). A petitioner is entitled to

relief if he can establish: (1) the sentencing court imposed his sentence in violation of the
Constitution or the laws of the United States; (2) the court lackedjurisdiction to impose the sentence;
(3) the sentence imposed exceeded the maximum authorized by law; or (4) the sentence is otherwise

subject to collateral attack. United States v. Placente, 81 F.3d 555, 558 (5th Cir. 1996);

§

2255(a)-

(b).

A defendant may not bypass a direct appeal and raise an issue for the first time in a

§

2255

motion without showing both cause for his procedural default and actual prejudice resulting from
the error. United States v. Guerra, 94 F.3d 989, 993 (5th Cir. 1996). The "cause" standard requires
one "to show that 'some objective factor external to the defense' prevented him from raising on

direct appeal the claim he now advances." Id. (quoting Romero v. Collins, 961 F.2d 1181, 1183 (5th

13a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 7 of 31

Cir. 1992)). "Objective factors that constitute cause include interference by officials that makes

compliance with the procedural rule impracticable, a showing that the factual or legal basis for the
claim was not reasonably available to counsel at the prior occasion, and ineffective assistance of
counsel in the constitutional sense." Id. "Nonconstitutional claims that could have been raised on
direct appeal, but were not, may not be asserted in a collateral proceeding." Vaughn, 955 F.2d at
368.

When bringing an ineffective assistance of counsel claim, a petitioner must establish that

counsel's performance was so deficient that he or she was not functioning as the "counsel'
guaranteed the defendant by the Sixth Amendment." Strickland v. Washington, 466 U.S. 668, 687
(1984). In order to do so, "[a] petitioner must show that counsel's performance was deficient, and

that the deficiency prejudiced the defense." Wiggins v. Smith, 539 U.S. 510, 521(2003). Counsel's

representation is deficient if it "fell below an objective standard of reasonableness." Strickland, 466
U.S. at 688. There exists a strong presumption that the assistance provided by a defendant's counsel
is reasonably professional. Id. at 689. To satisfy the "prejudice" prong, a petitioner must establish

"a reasonable probability that, but for counsel's unprofessional errors, the result of the proceeding

would have been different." Id. at 694. "A reasonable probability is a probability sufficient to
undermine confidence in the outcome" of the proceeding. Id.

III. LEGAL ANALYSIS
A. Motion to Compel

First, Esquivel moves the Court to compel defense counsel Charles King to produce

Esquivel's entire case file, which the Court construes as a motion for discovery. Under Rule 6(a)

of the Rules Governing § 2255 Cases, "A judge may, for good cause, authorize a party to conduct
7

14a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 8 of 31

discovery under the Federal Rules of Criminal Procedure or Civil Procedure, or in accordance with
the practices and principles of law." Under Rule 6(b), "[a] party requesting discovery must provide

reasons for the request." A court "must allow discovery.
in the petitioner's favor, would entitle him to relief.

.

.

. .

only where a factual dispute, if resolved

." Wardv. Whitley, 21 F.3d 1355, 1367 (5th

Cir. 1994).

The Court finds no good cause to allow discovery. Due to the sensitive nature of this case,

which involved a dangerous gang and numerous murders and threatened murders of informants, the

Court previously ordered defense counsel for TMM members not to provide the defendants with a
copy of the discovery. Therefore, counsel wisely disregarded Esquivel's

request.4

Moreover,

Esquivel, an unrepentant convicted murderer and dedicated member of the TMM, has provided no
specific grounds why the Court should endanger the lives of any more victims by allowing open

access to discovery. Accordingly, Esquivel's nonspecific and overly broad request, amounting to
nothing but a fishing expedition, will not be permitted. See

id; see also United States v.

Webster,

392 F.3d 787, 80 1-02 (5th Cir. 2004).
B. Section 2255 Motion5
1.

6

Appointed Counsel

4According to counsel's affidavit, he indeed responded to Esquivel ' s request, telling Esquivel he was prohibited
by the court from releasing discovery.
51n his § 2255 motion, Esquivel appears to be relying on affidavits submitted by Jose Cardona and Jesse
Ramirez in support ofJavier Guerrero's § 2255 motion. These documents, however, were not made a part ofEsquivel's
record, are not properly before the Court, and will not be considered. Notwithstanding, for the same reasons as detailed
in full in the order denying Guerrero relief in his § 2255 motion, the affidavits likewise would not have provided Esquivel
with any relief.

6Many of the arguments presented by Esquivel were waived by failing to raise the issues on direct appealfor
example, those related to court errors. However, because Esquivel also challenges defense counsel's effectiveness on
appeal, and because many of the claims are interrelated, the Court will nonetheless address these waived arguments.

15a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 9 of 31

Several of Esquivel's

§

2255 claims pertain to Charles King, appointed counsel at trial and

on appeal. As background, Ricardo Calderon was initially appointed as sole counsel for Esquivel.

Charles King was then appointed as supplemental counsel on November 18, 2010, because Calderon
faced a potential conflict of interest involving a co-defendant. (ECF No. 448.) On April 21, 2011,
Esquivel filed a motion to withdraw appointed counsel, arguing that Calderon and King had "tag

teamed" against him to force him to plead guilty, presumably pursuant to a plea agreement, despite
his assertions of innocence. Esquivel claimed that trust was broken and asked for the appointment

of two new lawyers versed in capital crimes, pursuant to

18 U.S.C. § 3005. (ECF No. 469.) Mr.

Calderon then filed a motion to withdraw as counsel, disputing Esquivel's allegations and claiming
he was surprised by Esquivel's motion. (ECF No. 470.) On April 27, 2011, after a hearing,

Calderon was terminated as Esquivel's attorney, King remained the sole attorney of record, and

Esquivel's motion was orally denied as moot.
a. Motion for New Counsel

Esquivel now claims that the Court erred in failing to grant his motion to withdraw counsel,
and also by failing to appoint new counsel on appeal. "An indigent criminal defendant has no right
to appointed counsel of his choice." Faretta

v.

California, 422 U.S. 806, 812 n.8 (1975). Unless

"there is a demonstrated conflict of interests or counsel and defendant are embroiled in an
irreconcilable conflict that is so great that it resulted ma total lack of communication preventing an
adequate defense, there is no abuse of discretion in denying a motion [to withdraw]." United States
v.

Cole, 988 F.2d 681, 683 (7th Cir. 1993) (internal quotations omitted) (cited favorably in United

States

v.

Wild, 92 F.3d 304, 307 (5th Cir. 1996)).

Esquivel has presented no grounds as to how Mr. King met the criteria for withdrawal. The

16a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 10 of 31

only reason provided in Esquivel's motion to withdraw was that Calderon and King were forcing

him to plead guilty. Esquivel, however, proceeded to trial and clearly was never forced to plead
guilty. Tension arising from a disagreement over a plea agreement is insufficient grounds for

withdrawal, without showing that representation lapsed in some way and that the two were unable
to work together. Wild, 92 F.3d at 307. The Court conducted a hearing and was persuaded that Mr.

King was fully able to represent Esquivel and his best interests. Moreover, Esquivel never moved
for the appointment of new counsel on appeal and has provided no grounds as to why new counsel

should have been appointed sua sponte. Accordingly, there is no merit to this claim.
b. Conflict of Interest

Next, Esquivel argues that a conflict of interest between him and Mr. King violated his
constitutional rights. Liberally construing Esquivel's motion, he appears to argue that a conflict of
interest arose for two reasons. First, counsel wanted to pursue one strategical route (plea), while

Esquivel wanted to pursue another (trial). Second, King's self-interest in protecting his reputation

prevented him from filing motions or issues on appeal that pertained to his own ineffectiveness.
"The representation to which a defendant is entitled under the Sixth Amendment of the
Constitution must be free from any conflict of interest."

United States

v.

Burns,

526 F.3d 852, 856

(5th Cir. 2008). "As a general rule, a conflict exists when defense counsel allows a situation to arise

that tempts a division in counsel's loyalties." Id. "To establish a Sixth Amendment violation on the

basis of a conflict of interest the defendant must demonstrate: (1) that his counsel acted under the
influence of an actual conflict; and (2) that the conflict adversely affected his performance at trial."
Id. An actual conflict cannot be a speculative or potential conflict, is one that adversely affects

counsel's performance, and only exists when counsel must choose between divergent or competing
10

17a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 11 of 31

interests. Id.

Conflict of interest claims generally arise in cases involving joint representation. However,
a claim may alsO arise when an attorney's self-interest conflicts with that of his client. In joint

representation cases, prejudice is presumed, but in self-interest cases, as here, prejudice must be
established. Beets

v.

Scott, 65 F.3d 1258 (5th Cir. 1995) (citing to Cuyler v. Sullivan, 446 U.S. 335

(1980), and distinguishing self-interest cases from joint representation cases).

Assuming there was an actual conflict between Esquivel and King, Esquivel has not
demonstrated any prejudice from any purported conflict. Again, Esquivel proceeded to trial and was
not actually forced to plead guilty. Moreover, Esquivel does not contend that a conflict adversely

affected counsel's performance at trial. And to the extent that Esquivel argues that counsel should
have, but could not, raise issues of his own incompetence on appeal, "in most cases a motion brought

under § 2255 is preferable to direct appeal for deciding an ineffective assistance." Massaro v. United
States, 538 U.S. 500, 504 (2003). Esquivel, now represented by retained counsel, was able to raise
any ineffective assistance of counsel claims he wanted. Thus, Esquivel suffered no prejudice from
any conflict, if there was one.
c. Section 3005

Esquivel also argues he was entitled to the appointment of two attorneys under § 3005, which
reads:

Whoever is indicted for treason or other capital crime shall be
allowed to make his full defense by counsel; and the court before
which the defendant is to be tried, or ajudge thereof, shall promptly,
upon the defendant's request, assign 2 such counsel, of whom at least
1 shall be learned in the law applicable to capital cases, and who shall
have free access to the accused at all reasonable hours.

11

18a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 12 of 31

18 U.S.C. § 1959,

under which Esquivel was charged, allows for punishment by death for

racketeering-related murder, thus constituting a capital crime.
The Court finds no merit to Esquivel's claim. On December 23, 2009, the Government filed
a notice that it did not intend to seek the death penalty. (ECF No. 223.) Esquivel has not pointed
to any Fifth Circuit authority that shows

§

3005 applies afterthe Government files formal notice that

it does not intend to seek the death penalty.
2. Motion for New Trial, Failure to Investigate a Defense, and Failure to Call Witnesses

Suggested by Him
Esquivel raises several interrelated arguments pertaining to his motion for a new trial and the
fairness of his trial, arguing that witnesses suggested by him were not investigated or allowed to
testify on his behalf. These arguments involve Jose Cristobal Cardona, a federal inmate serving a

480-month sentence for a drug conviction in an unrelated case who is presently housed at the same
facility as Esquivel. Cardona, a TMM member, has a storied past with the Fifth Circuit. Since his

conviction, Cardona has filed numerous law suits on his own behalf and drafted countless motions

on behalf of fellow inmates, many that were handwritten with a distinct and easily identifiable
penmanship. Cardona has received in excess of six strikes against him for frivolous filings.
In relation to the present case, Cardona filed a motion to proceed as next friend of Javier

Guerrero, Esquivel's co-defendant, which the Court denied. Cardona also wrote a letter to Joey
Contreras, the Assistant United States Attorney assigned to prosecute Esquivel and Guerrero's case,

indicating he directed a man named Pablo Acosta to collect money from Jose Damian Garza, and

Acosta killed Garza in self-defense after Garza opened fire. Contreras responded to the letter with
skepticism, saying that Cardona provided no specific facts or additional evidence in support of his
12

19a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 13 of 31

claim. And because Cardona had been in continuous custody since well before the date of the

murder, Cardona's claims were implausible. Contreras also indicated that other letters from Cardona
had been intercepted in which Cardona vowed to interfere in the prosecution of TMM members in
any way possible, including by lying. He also noted that Cardona was serving a very lengthy

sentence, would not live long enough to be released from prison, and therefore had little to lose by
lying. Those factors, along with the fact that no agent knew of any person named Pablo Acosta,

convinced Contreras that Cardona' s contentions were fabricated and without merit.
On June 21, 2011, Mr. King filed a motion for continuance, stating that he too received a
letter from Cardona. (ECF No. 510.) Cardona indicated in the letter that he, a man named Jesse

Ramirez, and an unnamed man in Mexico had exculpatory evidence to offer that Esquivel was
innocent. The Court denied the motion without prejudice, holding, "without more than a bald

assertion of potential evidence that could assist the defendant is not good cause to continue the trial."

(ECFN0. 512.)
On July 18, 2011, after he was convicted, Esquivel, acting pro se, filed a motion for a new

triala motion that was unmistakably drafted by Cardona.

(ECF No. 572.) In the motion for a new

trial, Esquivel accused the Court of bias against Cardona and argued that a new trial was warranted
because: (1) the Court denied him the right to subpoena available material witnesses by writ of ad

testificandum; (2) Cardona would present favorable evidence at a new trial that would "put an entire
(sic) different face to the matter;" and (3) because counsel was ineffective by failing to object to the

impartiality of the Court in denying witnesses. The Court denied the motion because Esquivel was

represented by an attorney and had no right to file pro se motions. (ECF No. 577.) The Court also
noted similarities in substance and form to other motions previously filed by Cardona in other

13

20a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 14 of 31

matters. Mr. King did not file a separate motion for a new trial.

Esquivel, again pro

Se,

untimely appealed the denial of the motion for new trial. (ECF No.

598.) The notice of appeal was also clearly drafted by Cardona. The Court denied Esquivel an

extension of time to file the notice of appeal, again based on the fact that Esquivel was represented
by counsel and was not permitted to file pro se motions. The Court also called out Cardona on

drafting the motion, and enjoined Cardona from filing anything else without receiving prior written

permission from a district court judge in the Western District of Texas. (ECF No. 602.)
a. Denial of Counsel

First, Esquivel argues that the Court denied him counsel at critical stages of the criminal
proceeding by denying the pro se motions drafted by Cardona. Esquivel, however, was fully
represented by counsel at all times and was not denied the right to counsel. Rather, the Court refused

to recognize hybrid representationwhich is not mandated by the Constitution and is within the

Court's discretionand disallowed the filing of pro se motions by Esquivel while represented by
counsel.

See Myers

v.

Johnson,

76 F.3d 1330, 1335 (5th Cir. 1996) ("[T]here is no constitutional

right to hybrid representation.").7
b. Jurisdiction

Second, Esquivel argues that the Court had no authority to sentence him while the denial of
his motion for new trial was on appeal. Even if this were true, the Court denied an extension oftime
to file a notice of appeal on September 26, 2011. Therefore, there was no appeal pending at the time

the Court sentenced Esquivel in 2012.

7lndeed, the Fifth Circuit refused to acknowledge hybrid representation on appeal, wholly disregarding
Esquivel's pro se appellate brief.

14

21a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 15 of 31

c. Motion

for New Trial

Third, Esquivel argues that Mr. King was ineffective for failing to file a motion for new trial.
Under Rule 33 of the Federal Rules of Criminal Procedure, "the court may vacate any judgment and

grant a new trial if the interest ofjustice so requires." Fed. R. Crim. P. 3 3(a).

Esquivel does not present any specific grounds that Mr. King should have presented in a
motion for new trial. Assuming Esquivel means to argue that a motion should have been filed based
on the same arguments presented in the Esquivel/Cardona motion for a new trial, King's motion

would not have succeeded. All of the grounds for a new trial related to Esquivel's inability to call
Cardona as a witness at trial. The Compulsory Process Clause of the Sixth Amendment grants a
defendant the right to offer the testimony of favorable witnesses and to compel their attendance at
trial. To exercise the compulsory right, a defendant must show that the testimony would be material,

favorable to the defendant, and not merely cumulative. UnitedStates v. Valenzuela-Bernal, 458 U.S.
858, 872-83 (1982). The Court, however, never prohibited any witness from testifying. Rather, the

Court held that Esquivel's "bald assertion of potential evidence" did not warrant a continuance.

Counsel's motion for continuance was denied without prejudice, yet counsel never followed up with
more substantial assertions from Cardona or Ramirez.
To the extent that Esquivel attempts to place blame on counsel for failing to follow up with

more substantial assertions, it is notable that despite Cardona's omnipresence in this case, he
continues to present nothing but vague assertions of Esquivel's innocence. If Cardona is unwilling
to provide specifics about his testimony, then counsel could not have acted deficiently for failing to
seek a new trial based on speculative testimony.

d. Failure to Investigate a Defense and Call Suggested Witnesses

15

22a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 16 of 31

Relatedly, Esquivel argues that counsel was ineffective for failing to investigate a defense
and for failing to call witnesses suggested by him. According to Esquivel, he did not know the

individuals involved in his case, he was innocent of the charged murder, and despite potential

witnesses that could provide exculpatory testimony, counsel failed to investigate a defense or call
those potential witnesses.
"[C] ounsel has a duty to make reasonable investigations or to make a reasonable decision that

makes particular investigations unnecessary. In any ineffectiveness case, a particular decision not
to investigate must be directly assessed for reasonableness in all the circumstances, applying a heavy

measure of deference to counsel's judgments." Strickland, 466 U.S. at 691. "An attorney need not

pursue an investigation that would be fruitless, much less one that might be harmful to the defense."

Harrington

v.

Richter, 562 U.S. 86, 108 (2011).

"[C]omplaints based upon uncalled witnesses [are] not favored because the presentation of
witness testimony is essentially strategy and thus within the trial counsel's domain," and because
"speculations as to what these witnesses would have testified is too uncertain." Alexander

v.

McCotter, 775 F.2d 595, 602 (5th Cir. 1985) (citing Un ited States v. Cockrell, 720 F.2d 1423, 1427
(5th Cir. 1983)). A petitioner seeking to show ineffective assistance of counsel must therefore

"name the witness, demonstrate that the witness was available to testify and would have done so, set
out the content of the witness's proposed testimony, and show that the testimony would have been

favorable to a particular defense." Day v. Quarterman, 566 F.3d 527, 538 (5th Cir.2009).
Esquivel provides no specific facts to support his claim, such as the names of any potential

witnesses who counsel should have called to testify. Liberally construing the motion, the Court can
presume that Esquivel means counsel should have investigated and called Cardona and perhaps
16

23a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 17 of 31

Ramirez to testify. However, as previously explained, despite numerous filings by Cardona himself,
he has yet to provide any specific details to the Court about what he would have testified to and has

provided no evidence to support his claim of Esquivel's innocence, a claim that was rebutted at trial
by numerous witnesses.

As for Ramirez, the only known information comes from an affidavit which Esquivel
attached as an exhibit to his

§

2255 motion. (ECF No. 775 at 3.) The affidavit, signed by Ramirez,

was initially filed in a wholly unrelated case, United States v. Jesse Salazar Ramirez, SA:2-CR621(3)-FB.8

In the affidavit, Ramirez indicates that Contreras, the prosecutor in Ramirez's case as

well, made comments to him that if he did not plead guilty, he would lose at trial because the United
States Attorneys, DEA agents, magistrate judges in San Antonio, district court judges in San
Antonio, and Judge Prado (the presiding district court judge at the time) were all part of an

"unbeatable 'tag team." (Id.) Esquivel also cites to the trial transcript in SA:2-CR-621 where
Contreras, in response to Judge Prado's comment about "help from the peanut gallery," says, "Tag
team." (Id. at 5.)

Ramirez's purported involvement in this case is merely tangential, where Contreras
purportedly pressured Ramirez into pleading guilty in an unrelated case in a different division. The
affidavit is wholly irrelevant to Esquivel's innocence in this case. Moreover, there is no indicatiOn

that Ramirez was willing or able to testify, or to what he would have testified. Thus, there is no
merit to this claim.
3. Court Bias

8After ajury trial, Ramirez was convicted of money laundering and various drug charges and sentenced to life
in prison.

17

24a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 18 of 31

a. Motion for Recusal

Next, Esquivel raises several interrelated arguments pertaining to court bias. The first
argument is that counsel was ineffective for failing to file a motion for recusal. Esquivel, while

represented by Mr. King but acting pro

Se,

filed a post-trial motion for

recusalwhich was

unquestionably drafted by Cardonabased on the Court's purported failure to allow Esquivel to call

witnesses on his behalf (ECF No. 573.) Like the motion for new trial, the motion was denied
because Esquivel was represented by counsel at the time. (ECF No. 577.) At no time prior to or

subsequent to that did Mr. King file a separate motion for recusal.

Esquivel cannot show any prejudice arising from Mr. King's failure to file a motion for
recusal on his behalf. 28 U.S.C.

§

455(a) states that any judge "shall disqualify [herself] in any

proceeding in which [her] impartiality might reasonably be questioned." Assuming Mr. King had
filed a motion for recusal based on the same grounds raised in Esquivel/Cardona's motion for
recusal, there would have been no merit to the motion. The Court did not at any time prevent any

witness from testifying on Esquivel's behalf and never denied any writs. Rather, the Court denied
a last-minute motion for continuance, without prejudice,based on a lack of good cause to delay trial.
b. Jose Cardona

Esquivel also points to two instances where he alleges that the Court showed bias towards
Jose Cardona, which, according to Esquivel, means that the Court interfered with his rights to a fair
trial and the right to counsel at critical stages. First, in correspondence from the Court to Jose

Cardona, the Court prohibited Cardona from acting as next friend to Javier Guerrero, Esquivel's codefendant. (ECF No. 775 at 18) Second, he contends that the Court failed to docket other

correspondence in which Cardona sought to proceed on behalf of Esquivel.
18

25a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 19 of 31

The Supreme Court has recognized "presumptive bias" as requiring recusal under the Due
Process Clause. Buntion

v.

Quarterman, 524 F.3d 664, 672 (5th Cir. 2008). Presumptive bias

occurs when a judge may not actually be biased, but has the appearance of bias such that "the

probability of actual bias on the part of the judge.

.

.

is too high to be constitutionally tolerable."

Withrow v. Larkin, 421 U.S. 35, 47 (1975)). The Supreme Court has found a judge's failure to

recuse constitutes presumptive bias in three situations: (1) when the judge "has a direct personal,

substantial, and pecuniary interest in the outcome of the case;" (2) when she "has been the target of
personal abuse or criticism from the party before [her];" and (3) when she "has the dual role of

investigating and adjudicating disputes and complaints." Buntion, 524 F.3d at 672 (quotations
omitted).
To be entitled to relief on this basis, Esquivel must show that the alleged bias or prejudice

"stem[med] from an extra-judicial source and result[ed] in an opinion on the merits on some basis
other than what the judge learned in the presentation of the case." United States v. Reeves, 782 F.2d
1323, 1325 (5th Cir. 1986). "[J]udicial rulings alone almost never constitute a valid basis" for

granting relief based on a claim of bias. Liteky v. United States, 510 U.S. 540, 555 (1994). Instead,
a petitioner must show a "deep-seated favoritism or antagonism that would make a fair judgment

impossible." Id. Conclusory allegations of trial court bias are insufficient to establish a claim for

relief under

§

2255. United States

v.

Flores, 135 F.3d 1000, 1006 n.22 (5th Cir. 1998).

Esquivel's claim of bias is unsubstantiated and without merit. His claim is premised upon
the idea that: (1) Cardona should be allowed to file frivolous motions on behalf of a defendant while

that defendant is represented by counsel; (2) by not allowing it, the Court must be biased against
Cardona; and (3) that bias made a fair judgment impossible for Esquivel. Esquivel, however, does
19

26a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 20 of 31

not actually contend that the Court erred in its ruling prohibiting Cardona from acting as next friend

of Guerrero. Nor does he contest the Court's ability to bar a prisoner such as Cardona from filing
documents in other defendants' cases without receiving prior permission from a judge. Nor has he
shown that any bias made a fairjudgment impossible for Esquivel. Esquivel' s right to a fair trial was

not dependent upon being able to receive help from
especially not dependent on Guerrero
is not entitled to counsel

Cardonaa

non-attorney

prisoner

and

ability to receive help from Cardona. Indeed, a defendant

of his choice, Faretta, 422 U.S. at 812 n.8, much less non-counsel of his

choice. Thus, there is no merit to Esquivel's claim of bias.
c.

Tag Team

Esquivel also claims there exists an "unbeatable tag team" in the Western District of Texas
involving the Department of Justice and judges. In support, Esquivel submitted the affidavit from
Jesse Ramirez, described above, in which Ramirez claims that Contreras, in an unrelated case,
warned Ramirez that if he did not plead guilty, he would lose at trial because of the unbeatable tag
team. According to Esquivel, attorneys are aware of this tag team and are terrified of it, thus

intentionally failing to subject the prosecution's case to meaningful adversarial testing. Citing to
United States

v.

Cronic, 466 U.S. 648 (1984), Esquivel argues that counsel's failure to subject the

tag team to meaningful adversarial testing constitutes the denial of counsel and denial of a fair trial.
In Cronic, the Court affirmed that "a trial is unfair if the accused is denied counsel at a

critical stage of his trial." 466 U.S. at 659. The Court also held that "if counsel entirely fails to
subject the prosecution's case to meaningful adversarial testing, then there has been a denial of Sixth

Amendment rights that makes the adversary process itself presumptively unreliable." Id. Because
"no amount of showing of want of prejudice would cure" such an error, no specific showing of

27a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 21 of 31

prejudice is required. Id. However, as Cronic explains, "only when surrounding circumstances

justify a presumption of ineffectiveness can a Sixth Amendment claim be sufficient without inquiry
into counsel's actual performance at trial." Id. at 662. For example, in Powell v. Alabama, 287 U.S.
45 (1932), counsel was appointed last minute in a capital case, had no opportunity to prepare a

defense, and was not granted a continuance.

The circumstances justifying a presumption of prejudice are not present here. The crux of

Esquivel's claim is that not a single defense attorney in the Western District of Texas can be deemed
reasonably competent because of a universal fear ofjudges, prosecution, and law enforcement within
the district. Aside from this being a brazen assertion, Ramirez's affidavit and trial citation pertain
to a separate case in a different division and in no way implicates the Court or Esquivel's counsel.

Indeed, counsel had almost two years to prepare a defense. Under these facts, Esquivel has not

established any deficiency on the part of counsel that warrants a presumption of prejudice. By failing
to point out specifically how defense counsel himself "was not able to provide [him] with the

guiding hand that the Constitution guarantees," Id. at 663, Esquivel has not demonstrated any
ineffective assistance of counsel.
4.

Exculpatory Information

Esquivel vaguely contends that the prosecution failed to reveal exculpatory information
concerning witnesses, resulting in prosecutorial misconduct. He claims that the government may
have "failed to disclose impeachment information for me as to various witnesses including Will
Davalos, Eli Valdez and Orlando Guerrero," three TMM members who testified against Esquivel
at trial. (ECF No. 769 at 6.)

21

28a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 22 of 31

Seemingly related to this claim, Esquivel also argues that counsel was ineffective for
withdrawing an objection to the presentence investigation report ("PSR"). Counsel for Javier
Guerrero objected to Guerrero's PSR, arguing that the prosecution had withheld favorable evidence
from him. Mr. King initially joined in the argument, but then withdrew the objection at sentencing,
admitting that (1) there was no indication that the prosecution had failed to be forthcoming with

exculpatoryevidence, and (2) he was able to adequately cross-examine witnesses. Esquivel now
argues that counsel was ineffective for withdrawing the objection, saying, "despite the fact the

government has withheld potentially exculpatory information concerning [its] witnesses, counsel
failed to object, and conceded that the defense was able to adequately cross examine government

witnesses despite not being provided with the exculpatory materials." (ECF No. 769 at 14.)
Esquivel provides no substantiation of these claims and does not allege any prejudice.
Conclusory allegations and speculative claims unsupported by specifics are "subject to summary

dismissal.
5.

. .

." Blackiedge v.

Allison,

431 U.S. 63, 74(1977).

Prosecutorial MisconductIntercepted Letters

Esquivel raises yet another prosecutorial misconduct claim, pointing to the letter from

Contreras to Cardona. According to Esquivel, Cardona sought information pursuant to the Freedom

of Information Act to determine whether any letters from Cardona were actually intercepted where
Cardona vowed to interfere in TMM cases. Esquivel contends that no such letters exist, and

Contreras's lie constitutes prosecutorial misconduct.

Contreras's letter to Cardona fails to establish prosecutorial misconduct. The existence or
non-existence of letters from Cardona possibly goes to whether Cardona's claims of Esquivel's

innocence were credible and thus material. However, Cardona' s request for information under the
22

29a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 23 of 31

Freedom of Information Act was dismissed because Cardona failed to pay the required fee; no

determination was ever made about the actual existence of the letters. (ECF No. 775 at 24.)
Furthermore, Esquivel has not demonstrated any prejudiceagain, Cardona has not substantiated
his claim of Esquivel's innocence.
6. Ineffective Assistance of Counsel on Appeal

Next, Esquivel argues that counsel was ineffective on appeal where counsel, who filed only
an Anders brief, failed to address the following issues: (1) the denial of his motion to suppress; (2)

the violation of his right to a fair trial when he was forced to disrobe and present his tattoos to the
jury; (3) the denial of his motion to sever his trial from his co-defendant; (4) the denial of his motion
for judgment of acquittal; (5) the use of gang expert testimony linking him to the TMM, which

violated his right to a fair trial; (6) the Court's refusal to address the merits of his pro se motions and

constitutional claims; (7) the fact that the jury instructions failed to require the jury to determine all

of the elements of the offense; and (8) consecutive life sentences were unreasonable.
It is important to note that although Mr. King initially filed anAnders brief, the Fifth Circuit

indeed found the brief to be deficient. He was then ordered by the Fifth Circuit to supplement the

brief to comply with the guidelines provided in United State v. Flores, 632 F.3d 229, 232-33 (5th
Cir. 2011). (United States

v.

Equivel, Appeal No. 11-50907, DE No. 77.) Alternatively, he was

permitted to file "a brief on the merits addressing any nonfrivolous issues that counsel deems

appropriate." (Id. at 3.) Mr. King opted to file a merits brief, and on September 25, 2013, he raised
the argument that the Court erred in denying Esquivel's motion to suppress. (DE No. 95.) The Fifth

Circuit affirmed the Court's ruling. (DE No. 149.)

23

30a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 24 of 31

The distinction in briefing is important. Although under either scenario, a petitioner "must

show a reasonable probability that, but for his counsel's failure, he would have prevailed on his
appeal," it is often difficult to demonstrate that counsel was incompetent when counsel files a merits
brief. Smith

v.

Robbins, 528 U.S. 259, 268, 288 (2000). When filing a merits brief, counsel "need

not (and should not) raise every nonfrivolous claim, but rather may select from among them in order
to maximize the likelihood

of success on appeal." Id. at 288 (citing Jones v. Barnes, 463 U.S. 745

(1983)). "Generally, only when ignored issues are clearly stronger than those presented, will the

presumption of effective assistance of counsel be overcome." Gray v. Greer, 800 F.2d 644,646 (7th
Cir. 1986) (cited favorably in Smith, 528 U.S. at 288). In contrast, where no merits brief is filed, "it

is only necessary for him to show that a reasonably competent attorney would have found one

nonfrivolous issue warranting a merits brief, rather than showing that a particular nonfrivolous issue
was clearly stronger than issues that counsel did present." Smith, 528 U.S. at 288.
Here, counsel focused on a very important issue, one that if successful would have led to the

suppression of evidence and possibly a new trial. The issue involved whether Esquivel's statement
to law enforcement in which he provided his cell phone number should have been suppressed, along

with any data derived from the phone number, such as Esquivel's location in Sabinal at the time of
the meeting and Hondo at the time of the murder. Esquivel has not demonstrated that any other
ignored issues would have maximized his chances on appeal. In fact, he (1) makes only conclusory

allegations that counsel was ineffective, and (2) does not even attempt to explain how the Court's

24

31a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 25 of 31

rulings were erroneous. "Mere conclusory allegations do not raise a constitutional issue in a habeas

proceeding." Ross
7.

v.

Estelle, 694 F.2d 1008, 1012 (5th Cir. l983).

Failure to Challenge Underlying Predicate Acts of RICO Conspiracy

Next, Esquivel contends that counsel was ineffective for failing to challenge two of the three
predicate acts for which he was charged under Count One, the RICO conspiracy count. Esquivel was

charged under

§

1962(d) with conspiring to violate

§

1962(c). Section 1962(c) makes it a crime to

participate, directly or indirectly, in the conduct of the affairs of an enterprise through a pattern of

racketeering activity that affects interstate or foreign commerce. "Racketeering activity" is defined
as two or more predicate criminal acts within a ten-year period that are (1) related and (2) "amount
to or pose a threat of continued criminal activity." Word of Faith World Outreach Ctr. Church, Inc.
v.

Sawyer, 90 F.3d 118, 122 (5th Cir. 1996). The indictment alleges six distinct racketeering acts,

three of which pertain to Esquivel: (1) the July 2008 murder of Jose Damian Garza; (2) conspiracy
to interfere with commerce by extortion under the Hobbs Act, 18 U.S.C.

and (3) conspiracy to distribute narcotics, 21 U.S.C.

§

§

1951, beginning in 2004;

841(a)(1)&(b)(1)(A) and 846, beginning in

AIIIU

a. Hobbs Act

First, Esquivel argues that counsel was ineffective for failing to challenge the application of

the Hobbs Act to him as a predicate act. Esquivel contends that a Hobbs Act conspiracy must be

9To briefly address a few of Esquivel's arguments, the use of gang expert testimony is permissible, see United
States v. Chavful, 100 F. App'x 226, 231(5th Cir. 2004), as is requiring a defendant to display tattoos, see United States
v. Velasquez, 881 F.3d 314, 334-39 (5th Cir. 2018), and imposing consecutive life sentences, United States v. MartinezHerrera, 539 F. App'x 598, 603 (5th Cir. 2013).

32a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 26 of 31

because extortion is not prohibited
based on activity prohibited by state law. He then argues that
under Texas law, his conviction is unlawful.
There is no merit to the argument. Section

§

1951, commonly referred to as the Hobbs Act.,

states:

affects
(a) Whoever in any way or degree obstructs, delays, or
in
commerce or the movement of any article or commodity
to do,
commerce, by robbery or extortion or attempts or conspires so
or commits or threatens physical violence to any person or property
of this
in furtherance of a plan or purpose to do anything in violation
section shall be fined under this title or imprisoned not more than
twenty years, or both.
18 U.S.C.A. § 1951. Extortion is defined as "the obtaining

of property from another, with his

violence, or fear, or under color of
consent, induced by wrongful use of actual or threatened force,
official right." 195 l(b)(2).

RICO predicate crimes are listed in 18 U.S.C.

§

196 1(1), and in pertinent part, include "(A)

Any act or threat involving murder, kidnapping, gambling, arson, robbery,

chemical
in obscene matter, or dealing in a controlled substance or listed
under State law and punishable by imprisonment for more than

bribery, extortion, dealing
.

.

.

,

which is chargeable

one year," or "(B) any act which is

States Code:
indictable under any of the following provisions of title 18, United
(relating to interference with commerce, robbery, or extortion)."

. . .

section 1951

In other words, a RICO predicate

defined by federal law under
act can be based on extortion under state law or extortion as
Guerrero was charged with a predicate act under

§

§

1951.

1951, not state law. Therefore, Texas law is not

applicable or relevant.
b. Role in Conspiracy

26

33a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 27 of 31

Next, Esquivel argues that counsel was ineffective for failing to challenge the drug
conspiracy predicate act, which he claims was improperly founded on a misprision of a felony. In

January of 2005, during the span of the RICO conspiracy, Esquivel was arrested after law

enforcement agents found approximately one kilogram of cocaine on his person. At the time of his
arrest, Esquivel was known by law enforcement agents to be involved only in a local gang, not the
TMM. Esquivel, however, had TMM-related tattoos and told an agent that he had made contact with
the TMM while spending time in jail. After the arrest, he was convicted of a misprision of a felony

for drug trafficking. This drug trafficking conviction was essentially the only evidence presented
at trial to support Esquivel's involvement in the TMM drug conspiracy RICO predicate act.

Esquivel also points to Contreras's opening statement, where Contreras told the

jury

that

Esquivel had a large racket going on. Esquivel, however, was incarcerated from January 30, 2005,
until June 13, 2008, for the misprision of a felony conviction, and again from October 21, 2008,
when his supervised release was revoked, to the present. According to Esquivel, he therefore could

not have had a large racket going on, and counsel was ineffective for failing to explain that he was
incarcerated the majority of the RICO conspiracy, which spanned from 2004 to 2008.

Esquivel cannot demonstrate any prejudice. Esquivel need not have personally committed
or agreed to commit two or more predicate acts for a substantive RICO offense under

Salinas

v.

§

1962(c).

United States, 522 U.S. 52, 63 (1997). He also need not have agreed to undertake all the

acts necessary for the crime's completion. Id. at 65. It is therefore irrelevant that he was convicted

only of a misprision of a felony or that he was even convicted at all. It is also irrelevant that he only

participated in the conspiracy for a short period of time, so long as he indeed participated in the

27

34a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 28 of 31

conspiracy. Evidence of the 2005 incident was sufficient to connect Esquivel to the TMM-related
drug trafficking conspiracy.
8.

Jury Instructions

Next, Esquivel argues that counsel was ineffective for failing to request ajury instruction that
it had to agree unanimously on the predicate acts supporting the RICO conspiracy. The jury verdict

form, however, indeed required the jurors to unanimously agree upon each of the three racketeering

acts, which the jurors did. (ECF No. 565.) Therefore, there is no merit to this claim.
9.

Failure to Object to Expert Testimony

Finally, Esquivel contends that counsel was ineffective for failing to object to testimony of
an expert who concluded that, based on his expertise, two people shot at the victim Jose Damian
Garza. He argues that this was improper fact finding that usurps the function of the jury.

Esquivel does not identify the witness. Presumably, Esquivel is referencing either the

testimony of Dr. Stash, the medical examiner who performed the autopsy of Garza, or Troy Wilson,
the Texas Ranger in charge of the Garza murder investigation. Dr. Stash testified about each bullet's
entrance and exit paths and also testified that there were a total often bullets. Dr. Stash was then
asked,
Q: And based on your medical training, do you have an opinion as to

what the cause of death was?
A: Multiple gunshot wounds.

Q. Okay. Would that be consistent with possible two weapons being

used?
A. It can be consistent with that, yes.

28

35a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 29 of 31

(ECF No. 689 at 158.) When the Texas Ranger was asked how many shooters shot at and killed Jose

Damian Garza, he responded, "There was no shell casings found at the scene, so we were

determining there'd be revolvers and multiple shooters." (ECF No. 690 at 19.)
Esquivel has not demonstrated ineffectiveness. Rule 702 of the Federal Rules of Evidence
states,

A witness who is qualified as an expert by knowledge, skill,
experience, training, or education may testify in the form of an
opinion or otherwise if:
(a) the expert's scientific, technical, or other specialized knowledge
will help the trier of fact to understand the evidence or to determine
a fact in issue;
(b) the testimony is based on sufficient facts or data;

(c) the testimony is the product of reliable principles and methods;
and
(d) the expert has reliably applied the principles and methods to the
facts of the case.

Both witnesses gave opinions rationally based on their perception that more than one shooter may
have been involved, in order to help the jury better understand the evidence. Esquivel does not

question the witnesses' qualifications to testify, that the testimony was not based on sufficient facts,
or that the testimony was not helpful. Esquivel, therefore, has not established any violation of Rule
702 and thus no deficiency of counsel for failing to object.

Esquivel likewise has failed to demonstrate any prejudice. Garza's daughter testified that
two men, not one, opened fire on her father, and several other witnesses testified that Esquivel

bragged about the murder. Cell phone records also placed Esquivel near the meeting in Sabinal on

29

36a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 30 of 31

July 13, and in Hondo on July 19 at the time of the murder. Thus, there was sufficient additional

evidence upon which to convict Esquivel for the murder of Garza.
IV. CERTIFICATE OF APPEALABILITY

"The district court must issue or deny a certificate of appealability when it enters a final order
adverse to the applicant." Rule

11

of the Rules Governing Section 2255 Cases in the United States

District Courts. A party may not appeal a final order in a

§

2255 proceeding unless a judge or a

circuit justice first issues a certificate of appealability. 28 U.S.C.
v.

§

2253(c)(l); see also Miller-El

Cockrell, 537 U.S. 322, 335-36 (2003). "To obtain a certificate of appealability, the petitioner

must make "a substantial showing of the denial of a constitutional right."

§

2253(c)(2); Slack

v.

McDaniel, 529 U.S. 473, 483-84 (2000). "A petitioner satisfies this standard by demonstrating that

jurists ofreason could disagree with the district court's resolution ofhis constitutional claims or that
jurists could conclude the issues presented are adequate to deserve encouragement to proceed
further." Miller-El, 537 U.S. 'at 327. "[W]here a district court has rejected the constitutional claims
on the merits, the showing required to [obtain a certificate of appealability] is straightforward: The

petitioner must demonstrate that reasonable jurists would find the district court's assessment of the
constitutional claims debatable or wrong." Id. at 338 (quoting Slack, 529 U.S. at 484).
For the reasons stated in this Order, Esquivel has not made a substantial showing of the

denial of a constitutional right. Accordingly, no certificate of appealability is warranted.
V. CONCLUSION

For the foregoing reasons, the Court concludes that Esquivel is not entitled to any relief.

Accordingly, it is hereby ORDERED that:
(1) Esquivel's motion to compel is DENIED. (ECF No. 757.)

37a

Case 2:09-cr-00820-AM Document 893 Filed 03/27/19 Page 31 of 31

(2) Esquivel's motion to vacate is DENIED. (ECF No. 768.)
(3) Esquivel's motion for extension of time is DENIED. (ECF No. 772.)

(4) A certificate of appealability is I)ENIED.

The Court also ORDERS that the Clerk's Office shall issue a clerk's judgment, terminating the

present cause of action.
SIGNED this

27TH

day of March, 2019.

ALIA MOSES
UNITED STATES DISTRICT JUDGE,

31

38a

Case: 19-50461

Document: 00515566337

Page: 1

Date Filed: 09/16/2020

United States Court of Appeals
for the Fifth Circuit
No. 19-50461

A True Copy
Certified order issued Sep 16, 2020

Clerk, U.S. Court of Appeals, Fifth Circuit

United States of America,

Plaintiff—Appellee,
versus
Victor Esquivel, also known as Youngster,
Defendant—Appellant.
Appeals from the United States District Court
for the Western District of Texas
USDC No. 2:15-CV-120
ORDER:
Victor Esquivel, federal prisoner # 37781-180, moves for a certificate
of appealability (COA) to appeal the denial of his 28 U.S.C. § 2255 motion in
which he attacked his convictions for one count of conspiracy to conduct the
affairs of an enterprise through a pattern of racketeering and two counts of
violent crimes in aid of racketeering. He was sentenced to two consecutive
life terms and an additional consecutive term of 120 months in prison.
Esquivel contends that his right to counsel constructively was denied
because there was an actual conflict between him and his counsel. He states
that counsel—who represented him both at trial and on appeal—was inclined
to operate in his self-interest and not raise on appeal the claims of ineffective

39a

Case: 19-50461

Document: 00515566337

Page: 2

Date Filed: 09/16/2020

assistance of counsel that Esquivel asserted in his pro se motions for a new
trial and for the appointment of new counsel on appeal. Esquivel also argues
that his counsel was ineffective on direct appeal and did not raise potentially
meritorious claims that had been preserved for appellate review.
A COA may issue if a movant makes “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003). If the district court denied relief on the
merits, a movant must establish that jurists of reason could debate the district
court’s resolution of his constitutional claims or that the issues raised deserve
encouragement to proceed further. See Slack v. McDaniel, 529 U.S. 473, 48384 (2000).
Esquivel has not made the required showing. Accordingly, his motion
for a COA is DENIED.

___________________________
KURT D. ENGELHARDT
United States Circuit Judge

40a

